<html>
<title> - DIVERSITY VISA PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         DIVERSITY VISA PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2005

                               __________

                           Serial No. 109-49

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-780                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 15, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia..........................................     2
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    47

                               WITNESSES

The Honorable Bruce A. Morrison, Chairman, Morrison Public 
  Affairs Group, former Member of Congress
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
The Honorable Howard J. Krongard, Inspector General, U.S. 
  Department of State and the Broadcasting Board of Governors
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. Mark Krikorian, Executive Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    14
  Prepared Statement.............................................    17
Ms. Rosemary Jenks, Director of Government Relations, NumbersUSA
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    57
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    58

 
                         DIVERSITY VISA PROGRAM

                              ----------                              


                        WEDNESDAY, JUNE 15, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:04 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Hostettler (Chairman of the Subcommittee) presiding.
    Mr. Hostettler. Good afternoon. Today the Subcommittee will 
examine the Diversity Visa or ``DV'' program. At this hearing, 
we will review the history of the program and its 
implementation.
    The DV program, part of the Immigration Act of 1990, was 
designed to increase diversity in the U.S. immigrant population 
by providing visas to nationals of countries that have had low 
immigration rates to the United States. Applicants for the DV 
program participate in a lottery in which the winners are 
selected through a computer-generated random drawing. Annually, 
approximately 50,000 aliens enter under the program.
    The program is not without its critics however. Some 
experts have argued that the program is susceptible to fraud 
and manipulation. For example, critics have asserted that it is 
common for aliens to file multiple applications for the lottery 
to improve their chances of winning. In reviewing the DV 
program in September 2003, the State Department Inspector 
General found that ``identity fraud is endemic, and fraudulent 
documents are commonplace.''
    Such fraud would be necessary if aliens were to file 
multiple applications under various aliases to improve their 
chances in the lottery. If selected under an alias, the alien 
would have to obtain and use fake documents to support his visa 
application. In addition to, and in part because of, concerns 
about fraud in the DV program, critics have argued that the 
program poses a danger to our national security. As one expert 
who testified on this subject last year said: ``The lottery is 
ideal for terrorists because it encourages immigration from 
those parts of the world where . . . fraud is common, documents 
are difficult to verify, and al-Qaeda is very active.''
    The lack of restrictions on admissions under the DV program 
has also been identified as a vulnerability that could be 
exploited by criminals and terrorists. It should be noted in 
this regard that almost 1,900 aliens from state sponsors of 
terrorism were selected in the DV 2005 lottery. From 1995 to 
2003, 18 percent of Diversity Visa recipients were from 
countries of concern with respect to terrorism. Further, unlike 
other visa categories, aliens who enter the United States under 
the DV program do not need familial or business ties to our 
country. Such relationships logically make it more likely that 
immigrants entering our country have a stake in our country's 
success as well as skills to contribute to our economy.
    For whatever reason, at least two aliens who have 
immigrated under the DV program have been tied to terrorism in 
the recent past. Hesham Hedayet, who killed two in an attack at 
LAX on July 4, 2002, got his green card under the program. In 
an asylum application that he had filed earlier, he had claimed 
that he had been accused of being a terrorist, a claim that the 
former INS never investigated.
    Similarly, a Pakistani national who pleaded guilty in 
August of 2002 to conspiracy to use arson or explosives to 
destroy electrical power stations in Florida entered under the 
DV program. Critics have further complained that the DV program 
unfairly moves lottery winners ahead of some family and 
employer-sponsored immigrants. Family fourth preference 
applicants from the Philippines must wait more than 22 years 
for a visa, for example, while DV winners can enter right away.
    Finally, critics have questioned both the goals of the 
program and whether the program even accomplishes its goals. 
Last year, former INS Associate Commissioner Jan Ting testified 
that ``the lottery is unfair and expressly discriminatory on 
the basis of ethnicity, and implicitly, race'' and that it 
``does not serve and is inconsistent with the priorities and 
best interests of the United States as otherwise expressed in 
our immigration laws.''
    We will explore these issues with our witnesses today. I 
turn to the gentleman from Virginia, Mr. Goodlatte, for 
purposes of an opening statement.
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate you 
holding this oversight hearing on the Diversity Visa program 
which is better known as the Visa Lottery Program. I want to 
thank you again but also point out that I have introduced 
legislation which the gentleman from Texas, Mr. Smith, has co-
sponsored. It has now more than 30 co-sponsors. It is 
bipartisan. I am pleased that it has several Democratic co-
sponsors, including Congresswoman Stephanie Herseth of South 
Dakota, who has agreed to be the lead Democratic co-sponsor. We 
are hopeful that this oversight hearing will lead to action 
being taken on this program, which I think is a security risk--
it is discriminatory. It is unfair to many immigrants who 
follow the lengthy process based on either having a family 
relationship or based upon having an offer of employment, a job 
skill that is needed in the United States. All of that is 
thrown aside by this program where millions of people submit 
their names. It is put into a computer with a very skimpy 
amount of information, and then 50,000 lucky people have their 
names drawn each year.
    We have given hundreds of thousands of these visas away. 
The State Department's Inspector General has identified this 
program as a national security risk. We have seen instances 
where people who have entered this country under the Visa 
Lottery Program have committed terrorist acts, for example at 
the El Al ticket counter in Los Angeles a few years ago, 
resulting in the deaths of two people on that occasion.
    So it is my hope that we will hear today about this program 
and whether or not there is any justification for a program 
that ignores the fact that people from more than a dozen 
countries are not permitted to participate in this program. 
They are the folks who are on the longest waiting list, people 
from Mexico for example, China, India, the Philippines, other 
countries around the world, excluded from the program because 
they do not meet the criteria and are facing even longer 
waiting periods as a result of that, and then watch somebody 
come into the country with no particular job skills, no 
particular family reunification issue, nothing other than 
putting their name into a computer, having it drawn out and 
skipping ahead of people who have specific job skills to offer 
this country, skipping ahead of people who have very close 
family relationships, for example, people who are permanent 
residents of the United States and petitioning for their spouse 
or their children to be able to join them. All of them are 
discriminated against under this program and cannot enter the 
country in the rapid fashion that those who participate in this 
Visa Lottery Program do. It has become a cottage industry for 
fraudulent opportunists. It is simply based on pure luck and, 
as I indicated earlier, threatens the national security of the 
country.
    I have a lengthy opening statement which I will not share 
with you in detail but rather simply ask be made a part of the 
record. And I yield back the balance of my time.
    Mr. Hostettler. Without objection, all Members' opening 
statements will be made a part of the record.
    At this time, I will introduce the panel.
    Bruce Morrison is chairman of the Morrison Public Affairs 
Group which he founded in 2001. He advises on financial 
services, housing finance, privacy and immigration issues. From 
1983 to 1991, Mr. Morrison represented the Third District of 
Connecticut in the House of Representatives. While in Congress, 
he served on the Committee on the Judiciary where he chaired 
this Subcommittee, the Subcommittee on Immigration.
    After leaving Congress, Mr. Morrison served from 1992 to 
1997 on the U.S. Commission on Immigration Reform. Mr. Morrison 
is a graduate of Yale Law School and holds a Bachelors degree 
in chemistry from MIT and a Master's degree in organic 
chemistry from the University of Illinois.
    Howard Krongard serves as the Inspector General for the 
Department of State and the Broadcasting Board of Governors. In 
this position, he acts as an independent reviewer and evaluator 
of the State Department's operations and activities 
domestically and abroad in 163 countries. From 1996 to 2005, he 
was of counsel to Freshfields Bruckhaus Deringer, an 
international law firm, and, before that worked for several 
legal and financial firms. Mr. Krongard graduated from 
Princeton University, where he majored in history and served as 
class president. He also graduated with honors from Harvard Law 
School.
    Mark Krikorian is the executive director of the Center for 
Immigration Studies, a research organization in Washington, 
D.C., that examines the impact of immigration on the United 
States.
    Mr. Krikorian, who frequently testifies before Congress, 
has published articles in the Washington Post, the New York 
Times and the National Review, among other publications. Mr. 
Krikorian hold a Master's degree from the Fletcher School of 
Law and Diplomacy, and a bachelor's degree from Georgetown 
University.
    Rosemary Jenks is the director of government relations for 
NumbersUSA. She has been active in immigration since 1990, 
acting as an independent immigration consultant and as director 
of policy analysis at the Center For Immigration Studies. Ms. 
Jenks, who has testified before the House and Senate 
Immigration Subcommittees, has written several articles and 
journals and co-authored two books. Ms. Jenks received her J.D. 
From Harvard Law School and B.A. in political science from The 
Colorado College.
    I want to thank all of the witnesses for once again being 
here today. You will notice we have a series of lights. And 
without objection, your full opening statement will be made 
part of the record. If you could summarize within the 5-minute 
time period we would be much appreciative.
    Mr. Morrison, you are recognized for 5 minutes.

    TESTIMONY OF THE HONORABLE BRUCE A. MORRISON, CHAIRMAN, 
    MORRISON PUBLIC AFFAIRS GROUP, FORMER MEMBER OF CONGRESS

    Mr. Morrison. Mr. Chairman and Members of the Subcommittee, 
it is a pleasure to be here, and I thank you for the 
opportunity to testify. I look forward to answering questions 
about the origin of this program, if Members have them, having 
been involved in its specific creation.
    I would also like to note at the outset that it is 
important to look at this program as a piece of a much larger 
immigration enterprise. Some of the comments that have been 
made in opening statements would suggest that this program is 
supposed to carry within it all of the other goals of our 
immigration system, and it is obviously just one piece; and at 
that, in numerical terms, a small piece of the overall 
enterprise. So I look at it more in terms of what it is 
supposed to accomplish.
    The idea of self-selected immigration is an old idea in 
American immigration. And in fact, for most of our history, 
immigrants came on a self-selected basis. And it was only in 
more recent times that sponsorship became the driving force for 
who would come. And even when sponsorship was given its central 
role in the 1965 act, the nonpreference category was created 
with the expectation that there would be significant numbers 
who would continue to come on a self-selected basis.
    Unfortunately or otherwise, just one of the consequences of 
the large numbers of people who began to come under the 1965 
act, the nonpreference category was soon unavailable and then 
eliminated. In the 1980's, various attempts were made to 
reinstate some kind of a program that looked to other sources 
rather than those who were sponsored by family or employers. 
And it ultimately gave rise to the diversity program as part of 
the 1990 act. Of course, that act did not just enact this 
program. It did significant things with respect to family 
immigration and with respect to employment-sponsored 
immigration. It was a piece of a whole, and it ought to be 
looked at that way.
    Obviously, if you are concerned about immigration, you 
think we have too many immigrants coming, you do not like our 
immigration system, Diversity Visas would be on the list of 
things that you might want to eliminate. On the other hand, if 
you think our immigration system on the whole, while it needs 
fixing in various ways, is a statement of success by the 
country, the number of people who aspire to come here and 
contribute to our success as a country and who in fact do 
contribute, then you would have a different reaction, I think, 
to this program.
    The question ultimately is, has this program worked? And I 
think within the terms of its creation, the answer is yes. It 
was not intended to create diversity in the immigrant stream as 
a whole. It could not have possibly done so at the 50,000 
number. It was intended to add another channel which would be 
opened to those who would not get to come, those countries 
which would not get to send immigrants under the family and 
employment programs because of the nature of how they work. And 
looked at in that way, the people who are coming to our country 
from different quarters of the world because of the Diversity 
Visa lottery, has demonstrated it is a different mix. And some 
of those things, I think, are important to focus on.
    For most of our history, Africans were not able to 
immigrate to the United States. They came as slaves, or they 
hardly came at all. This program has opened the door to African 
immigration. I think that is a very good contribution to our 
country and to an understanding in our own population that the 
doors of this country are open to people everywhere in the 
world as long as they follow the rules and as long as there are 
numbers available. This is a legal immigration program. It is 
not a program of illegal immigration. It ought to be judged in 
those terms.
    Another major source of people coming under this program 
now is Eastern Europe. Congress passed laws in the 1970s 
insisting that the countries of Eastern Europe and the Soviet 
Union let people migrate. And people were not allowed to 
migrate to the United States, and special programs had to be 
created at that time to allow people to come. This program has 
opened the doors to countries from the former Soviet Union. And 
many of the immigrants are coming from there. Once again, a 
statement that we meant it when we said those people should be 
able to migrate.
    There is no question that the IG has identified weaknesses 
in the program, and I think has made certain recommendations 
that ought to be considered for improving the program. But 
improving the program is different from abolishing it.
    One last thing I would say is that the statement that this 
program is likely to be the source of a terrorist threat seems 
to me to be falling into the trap of seeing terrorists 
everywhere. The fact is that our 9/11 hijackers all got here 
using nonimmigrant entry opportunities. We have so much more 
important work to do in protecting the country by doing the job 
of screening people properly, of using intelligence information 
effectively, trying to manipulate a lottery seems to me to be a 
very low priority exercise for terrorists. They have much more 
direct ways to threaten us. That is where we ought to be 
focusing the terrorist concern.
    If you do not like the program for all kinds of reasons, 
because of numbers, because of who it is, because of where it 
comes from, because you think everybody ought to be sponsored, 
I think those are legitimate debates. I think the introduction 
of terrorism into the debate kind of deflects the matter away 
from what ought to be focused upon.
    [The prepared statement of Mr. Morrison follows:]

                Prepared Statement of Bruce A. Morrison

    Chairman Hostettler, Congresswoman Jackson Lee, and Members of the 
Subcommittee:
    Thank you for the opportunity to testify regarding the diversity 
visa program. As you know, I served as a Member of Congress from the 
Third District of Connecticut from the 98th Congress through the 101st 
(1983-91). Throughout my tenure in the House, I served on the Committee 
on the Judiciary. From 1989 to 1991, I was Chairman of this 
Subcommittee.
    As the author of the House bill that became the Immigration Act of 
1990, I was present at the creation of the diversity visa program. In 
my opinion, the Program has served the purposes for which it was 
created: providing a counterbalance to the concentration of source 
countries for immigrants that results from family and employment-based 
immigration; and creating an avenue for legal immigration from abroad 
for those without pre-existing family or employment relationships in 
the United States.

                         CONTEXT OF THE PROGRAM

    For almost 50 years prior to 1965, U.S. immigration was governed by 
a set of country quotas that discriminated against source countries 
that had contributed relatively fewer natives to the U.S. population 
recorded in the 1910 census. The Immigration Act of 1965 sought to 
reform this situation through equal national quotas, family 
reunification principles, employment sponsorship, and a non-preference 
category for those lacking a family or employer sponsor. Like many 
major legislative initiatives, not all the consequences of the Act were 
anticipated.
    Among these consequences were:

        <bullet>  Elimination of the non-preference category, due to 
        over-subscription of higher preferences.

        <bullet>  Growing backlogs in both family and employment 
        preference categories, due to inadequate numbers of available 
        visas to meet the demand.

        <bullet>  Increasing concentration of source countries driven 
        by family relationships, demographic trends, geography, refugee 
        flows, and past migration patterns.

    The Immigration Act of 1990 sought to address these issues in a 
variety of ways. For instance:

        <bullet>  Family visa availability was increased, especially 
        for spouses and minor children of lawful permanent residents 
        (LPRs).

        <bullet>  Employment visa availability was increased, 
        especially for higher skilled workers.

        <bullet>  Transitional and permanent diversity visa programs 
        were created to augment the entering population with self-
        sponsored immigrants drawn from countries with relatively lower 
        participation in the family- and employment-sponsored programs.

    Demand to immigrate still outstrips the supply of visas, a 
continuing testament to the lure of the American Dream, but the 
intended priorities of the 1990 Act have shaped the immigration of the 
past 15 years.

                    THE DIVERSITY VISA--WHY HAVE IT?

    Those who do not much like immigration will certainly not like the 
diversity visa program. It is grounded in the belief that immigration 
has contributed to the strength of the United States. It seeks to 
address some inherent weaknesses in relying solely on sponsorship of 
families and employers to provide our new immigrants.
    * Sponsored immigration inherently leads to concentrations of 
nationalities among new immigrants mirroring those who have come most 
recently.

        <bullet>  The pre-1965 de jure discrimination in favor of the 
        nationalities of longest presence in the country has been 
        replaced with a de facto discrimination in favor of the 
        nationalities most recently arrived.

        <bullet>  Both source countries from an earlier era--especially 
        Europe--and for which there never was an era of free 
        immigration--especially Africa--are beneficiaries of the 
        diversity category.

        <bullet>  Most employment-based, and many family-sponsored, 
        immigrants are already in the country. The diversity program 
        opens the door to those abroad to find a legal channel to 
        immigrate.

        <bullet>  The bulk of immigrant flows will always come from 
        those places of close proximity, long immigrant history, or 
        large population. However, the principle that all nationalities 
        are welcome, subject to available numbers reflecting overall 
        legislated limits, is at the heart of the definition of 
        America. We are a nation defined by allegiance to democracy, 
        human rights and equal opportunity, rather than a particular 
        race, ethnicity, or religion.

        <bullet>  The broader the mix of nationalities that comes to 
        define America, the better equipped America becomes to 
        understand and relate to the diversity of the world abroad. 
        There is no better antidote to the challenges of globalization 
        than to attract the ``self-selected strivers'' from every 
        corner of the globe.

    In sum, the diversity visa is a pro-immigration program that 
underscores the reasons to support immigration--in manageable and 
managed numbers. It balances the limitations of a structure based only 
on family ties and established employment.

                   THE DIVERSITY VISA--HAS IT WORKED?

    The diversity visa program has done what it set out to do, and most 
of the objections to the existence of the program could as easily be 
leveled at other aspects of our immigrant and nonimmigrant admissions.

        <bullet>  One need only glance at the chart on page 3 of the 
        CRS Report (Immigration: Diversity Visa Lottery, Updated April 
        26, 2004) to see the contrast between source regions for 
        diversity immigrants and those arriving through family or 
        employer sponsorship.

        <bullet>  This program has marked the first time in our history 
        that Africans have been able to immigrate by choice in 
        significant numbers.

        <bullet>  During the Cold War, we berated the Warsaw Pact 
        countries for denying emigration rights to their citizens. The 
        diversity visa has actually allowed immigration from this 
        region to resume.

        <bullet>  The need to administer the program has actually given 
        rise to significant innovations in visa processing, such as the 
        National Visa Center's consolidation of immigrant file 
        processing and fee collections, and the application of facial 
        recognition screening, that have benefited the immigration and 
        security system as a whole.

        <bullet>  When there are far easier means to acquire immigrant 
        and nonimmigrant visas, or to enter with no visa at all, it is 
        absurd to think that a lottery would be the vehicle of choice 
        for terrorists. Security is important and attention should be 
        focused on where the greater risks actually occur.

        <bullet>  Illegal immigration is certainly a problem, but this 
        one program does not significantly affect it. Opening legal 
        doors for those not in the country rewards those who use legal 
        channels. It is the ease of unauthorized employment that is at 
        the heart of our illegal immigration problem.

        <bullet>  Fraud is a potential problem in all programs that 
        provide significant benefits. The remedy is to take steps to 
        reduce the fraud, not eliminate the program.

    Overall, the diversity visa program has provided benefits to the 
country in keeping with the principles that supported its creation. The 
focus should be on eliminating the weaknesses.

                THE DIVERSITY VISA--CAN IT BE IMPROVED?

    The real debate here is one of values--do we believe that the 
nation benefits when we show the whole world a path to join our two-
century long project of building a nation based on democratic 
principles? Of course, the invitation is limited by our capacity to add 
people, by our need to protect our security, and by the necessity to 
select those who can contribute to our national well being. But all 
these goals can be pursued better with the diversity visa than without.

        <bullet>  Terrorists come from many places and carry many 
        passports, not all legitimate. While little will be lost by 
        excluding natives of the ``state sponsors of terrorism'' list, 
        barring them will gain us little in the way of protection. It 
        is the effective screening of individual applicants for all 
        visas that needs attention.

        <bullet>  While it seems unlikely that the lottery seduces 
        illegal immigrants to remain in the U.S., especially after the 
        expiration of Sec. 245(i) of the INA, a simple remedy would be 
        to eliminate the right to adjust status on the basis of a 
        diversity visa. This would require processing abroad, which 
        would eliminate those with significant periods of unauthorized 
        presence from eligibility. Further, it would be consistent with 
        the emphasis on using the diversity visa to attract immigrants 
        from abroad, rather than those already in the U.S.

        <bullet>  New technology appears to address the multiple 
        application abuse, and broader sanctions, including permanent 
        exclusion form the program and application of the 
        misrepresentation inadmissibility standard, are within the 
        power of the State Department to implement.

        <bullet>  There is a basis for enhancing the skill requirements 
        for eligibility and to provide standards for meeting them.

        <bullet>  It is hard to get exercised about uncovered costs of 
        under $1 million annually. While collection of a small 
        application fee might have some advantages, it hardly seems 
        worth the administrative burden. A small increase in the fee 
        for successful applicants seems much more viable.

        <bullet>  Additional steps to fight document and credential 
        fraud are certainly worth considering.

    Thank you, Mr. Chairman. I am happy to answer your questions and 
those of other Subcommittee members at the appropriate time.

    Mr. Hostettler. Thank you Mr. Morrison.
    Mr. Krongard.

   TESTIMONY OF THE HONORABLE HOWARD J. KRONGARD, INSPECTOR 
GENERAL, U.S. DEPARTMENT OF STATE AND THE BROADCASTING BOARD OF 
                           GOVERNORS

    Mr. Krongard. Thank you, Chairman Hostettler and Members of 
the Committee. I appreciate the opportunity to testify today 
regarding the Office of the Inspector General's work on the 
State Department's Diversity Visa program which is administered 
by the Bureau of Consular Affairs, which I will refer to for 
simplicity as CA.
    As you likely know, the Senate just recently confirmed me, 
and I am recently new as the Inspector General. But I have been 
briefed on the OIG's work that resulted in our September 2003 
report entitled, Diversity Visa Program, and on the testimony 
given here on the subject in April 2004 by then-Deputy 
Inspector General, Ambassador Anne Patterson.
    Although OIG has not conducted another comprehensive review 
focused on the DV program, OIG monitors consular activities as 
part of tracking compliance with our report, conducting routine 
post inspections, and maintaining an ongoing dialogue with CA 
regarding DV issues.
    When our people are present at DV posts, the inspectors 
observe and inquire about revisions in the program's 
implementation. For example, one of our consular inspectors 
just recently visited the Kentucky Consular Center where DV 
applications are processed in conjunction with a broader 
inspection of CA. It was actually focused on the executive 
office of CA. Our 2003 report made eight recommendations, and 
all of those and our understanding of CA's responses are 
addressed in my statement for the record at more depth. Suffice 
it to say that OIG considers seven of the eight recommendations 
as closed or in the process of closure, and the one that is 
open related to multiple filings.
    I should also point out that OIG's field work for the 
September 2003 work was conducted when the DV program was 
paper-based and applications were processed by hand. In 
November 2003, CA introduced an electronic filing process for 
the DV program, which is better known as the EDV program, 
requiring electronic application to be sent through the 
Internet. This permits computer screening of all principal 
applicants, spouses and children for violations of DV 
application rules. Therefore, the recommendations in the report 
were based on technologies and statistics that have been 
substantially modified, well before the introduction of program 
tools, such as computer data mining to detect duplicate 
entries, improved facial recognition technology, the use of 
electronic DV applications filed exclusively via the EDV 
program, and the recent increase in the DV fee, which is levied 
on winners at a level that we believe covers the full cost of 
the program.
    Now with respect to the multiple applications, our review 
identified a significant number of duplicate applications in 
the DV program based on a completely paper process at that 
time. Currently, the penalty for duplicate entry is 
disqualification for the year that the duplicate submission is 
detected. It does not disqualify someone for future years. OIG 
recommended that CA propose changes to the Immigration and 
Nationality Act to bar permanently from future DV lotteries all 
adults identified as filing multiple applications. Under 
section 212(a)(6)(C) of the Immigration and Nationality Act, 
persons are ineligible for a visa based on fraud or willful 
material misrepresentations.
    CA raised several concerns and amongst others were with the 
fairness and enforceability of the recommendation because it is 
difficult to prove that duplicate applications were either 
willful misrepresentations rather than inadvertent or were 
actually made by the applicant rather than by someone else to 
discredit or penalize the applicant. This recommendation 
remains open between OIG and CA. OIG flagged this 
recommendation again in a more recent review concerning the 
Consular Fraud Prevention Program, and we will continue to 
review the recommendation in light of improvements, new 
technologies and also any actions that the Congress may take.
    Let me conclude on the fee issue. We think the fee issue is 
taken care of. So let me not address that and go to some 
conclusions. During the recent visit to the Kentucky Consular 
Center, our consular inspector determined that, with the 
electronic filing of DV applications now in its second year, 
all DV enrollment applications are checked for duplicates using 
anti-fraud technology. Duplicates found at this step are 
disqualified. Winning entries selected from the remaining 
applications are then checked for duplicate enrollment using 
facial recognition technology and biographical data comparison.
    However, the potential for fraud does not end with 
identifying duplicates. The Kentucky Consular Center flags 
fraud indicators for adjudicating officers to address when 
winning applications are further processed in the field. 
Although EDV has not stopped duplicate filing, it has made 
identifying duplicate applications easier and helped the 
adjudicating officers have more effective interviews. As a 
result, CA is able to identify an increasing number of 
duplicates. OIG believes that continued advances in technology 
will increase detection of duplicates but will not stop them.
    In closing, OIG believes that the process of complying with 
the recommendations of our 2003 report, CA has strengthened the 
program. We will continue to monitor the program as we inspect 
their management of consular operations and individual posts 
abroad to oversee and assist the State Department in improving 
border security and program management.
    Thank you, sir, and I welcome at the appropriate time any 
questions you may have.
    [The prepared statement of Mr. Krongard follows:]

                Prepared Statement of Howard J. Krongard

    Chairman Hostettler, Representative Jackson Lee, and Members of the 
Subcommittee:
    I appreciate the opportunity to testify today regarding the Office 
of Inspector General's (OIG) work on the State Department's Diversity 
Visa program, which is administered by the Bureau of Consular Affairs 
(CA). As you likely know, the Senate confirmed me last month as the new 
Inspector General (IG). Although OIG has been without a permanent IG 
for the past two years, OIG has been a valuable contributor in reducing 
fraud in visa and passport applications and strengthening the nation's 
border security.
    I have been briefed on OIG's work that resulted in a September 2003 
report entitled Diversity Visa Program (ISP-CA-03-52). I also have been 
briefed on the testimony delivered on this subject in April 2004 by 
Ambassador Anne Patterson, who was OIG's Deputy Inspector General at 
the time, and on actions taken by CA to address OIG's recommendations.
    In her testimony, Ambassador Patterson stated that OIG would 
examine how vulnerabilities in the program will be fully addressed. 
Although OIG has not conducted another comprehensive review focused on 
the Diversity Visa program, OIG monitors consular activities as part of 
tracking compliance with our report, conducting routine post 
inspections, and maintaining an ongoing dialogue with CA concerning 
Diversity Visa issues. When present at Diversity Visa posts, OIG 
observes and inquires about revisions in the program's implementation. 
For example, last month one of our consular inspectors visited the 
Kentucky Consular Center, where Diversity Visa applications are 
processed, in conjunction with a broader inspection of CA. Our 2003 
report made eight recommendations, and today, I will review those 
recommendations and our understanding of how CA responded.

                               BACKGROUND

    In fiscal year 1995, Congress established the Diversity Visa 
program that authorized up to 50,000 immigrant visas annually to 
persons from countries that were underrepresented among the 400,000 to 
500,000 immigrants coming to the United States each year. Most 
immigration to the United States is based on family relationships or 
employment. Diversity Visa applicants, however, can qualify based on 
education level and/or work experience. This program commonly is 
referred to as the ``visa lottery'' because the ``winners'' are 
selected through a computer-generated random drawing. If ultimately 
selected as a lottery winner, like other immigrant applicants, they are 
subject to all grounds of ineligibility related to adverse medical 
conditions, criminal behavior, and other factors. If deemed eligible on 
those grounds, they need only to demonstrate that they have the 
equivalent of a U.S. high school education or possess two years of work 
experience in an occupation that requires at least two years of 
training or experience within the five-year period immediately prior to 
the application.
    Originally, the Diversity Visa program was one of many immigrant 
visa functions assigned to the National Visa Center at Portsmouth, New 
Hampshire. In October 2000, Diversity Visa processing was moved to a 
newly remodeled site at Williamsburg, Kentucky, known as the Kentucky 
Consular Center. This alleviated overseas missions of many clerical and 
file storage responsibilities. In November 2003, CA introduced an 
electronic filing process for the Diversity Visa program, known as the 
E-DV program, requiring electronic applications to be sent through the 
Internet. This permits computer screening of all principal applicants, 
spouses, and children for violations of Diversity Visa application 
rules.
    OIG's fieldwork for the September 2003 report was conducted when 
the Diversity Visa program was paper-based and applications were 
processed by hand. Therefore, the recommendations in the report were 
based on technologies and statistics that have been significantly 
modified--well before the introduction of program tools such as 
computer data mining to detect duplicate entries, improved facial 
recognition technology, the use of electronic Diversity Visa 
applications filed exclusively via the E-DV program, and the recent 
increase in the Diversity Visa fee levied on winners at a level that 
covers the full cost of the program.

                            RESULTS IN BRIEF

    OIG's September 2003 report identified eight recommendations to 
strengthen the Diversity Visa program. Specifically, OIG recommended 
that CA:

        <bullet>  propose legislative changes to the Immigration and 
        Nationality Act to bar aliens from states that sponsor 
        terrorism from the Diversity Visa program;

        <bullet>  propose legislative changes to the Immigration and 
        Nationality Act to bar permanently from future Diversity Visa 
        lotteries all adults identified as filing multiple 
        applications;

        <bullet>  issue standards for determining whether foreign high 
        school educations are comparable to U.S. high school 
        educations;

        <bullet>  prepare an annual report on regional and worldwide 
        Diversity Visa trends and program issues;

        <bullet>  determine whether antifraud field investigations are 
        useful in Diversity Visa cases;

        <bullet>  request authority to collect fees from all persons 
        applying for the Diversity Visa program;

        <bullet>  determine how the Diversity Visa fee could be 
        appropriately devoted to antifraud work at overseas missions; 
        and

        <bullet>  conduct workload studies to determine whether a full-
        time visa officer position and a language-designated telephone 
        inquiry position should be established at the Kentucky Consular 
        Center.

    OIG considers seven of the eight recommendations as closed or in 
the processes of closure. One that is open, related to multiple 
filings, is discussed below.

                      FINDINGS AND RECOMMENDATIONS

Aliens from States that Sponsor Terrorism
    Section 306 of the Enhanced Border Security and Visa Act of 2002 
(Public Law 107-173) generally prohibits issuance of nonimmigrant visas 
to aliens from states that sponsor terrorism unless the Secretary of 
State judges that such aliens pose no risk to national security. OIG 
noted that no parallel restriction exists for immigrant visas, 
including those resulting from the Diversity Visa program. To date, 
this legislative double standard persists.
    OIG recommended that CA propose legislative changes to the 
Immigration and Nationality Act to bar aliens from states that sponsor 
terrorism from the Diversity Visa program. OIG continues to believe 
that the Diversity Visa program contains significant risks to national 
security from hostile intelligence officers, criminals, and terrorists 
attempting to use the program for entry into the United States as 
permanent residents. However, CA expressed concern with permanently 
disbarring aliens fleeing oppressive regimes of states that sponsor 
terrorism. For example, aliens fleeing oppression from Cuba, Libya, 
Syria, and Iran would be ineligible to apply for a visa via the 
Diversity Visa program if this recommendation were strictly 
implemented.
    Under current conditions, consular procedures and heightened 
awareness generally provide greater safeguards against terrorists 
entering through the Diversity Visa process than in the past. Consular 
officers interview all Diversity Visa winners and check police and 
medical records once applicants begin the actual visa application 
process. CA now requires all immigrant and nonimmigrant visa applicants 
to be fingerprinted. This allows consular officers to run visa 
applicant fingerprints through U.S. databases of criminals and 
terrorists in about 15 minutes. It also means that if an applicant 
applies for a nonimmigrant visa using one name and later applies for a 
Diversity Visa under a different name, the fingerprint system will help 
to identify him as a fraudulent applicant. OIG closed this 
recommendation based on acceptable noncompliance.

Persons Filing Multiple Applications
    OIG's review identified a significant number of duplicate 
applications in the Diversity Visa program based on a completely paper 
process at the time. OIG took issue with the unfair advantage that 
multiple filers had for becoming winners and their additional 
administrative burden. Despite program restrictions against duplicate 
submissions, CA detects thousands of duplicate filings each year. 
Currently, the penalty for duplicate entry is disqualification for the 
year that the duplicate submission was detected.
    OIG recommended that CA propose changes to the Immigration and 
Nationality Act to bar permanently from future Diversity Visa lotteries 
all adults identified as filing multiple applications. Under Section 
212(a)(6)(C) of the Immigration and Nationality Act persons are 
ineligible for a visa based on fraud or willful material 
misrepresentations. There is no legal precedent or legislative 
authority for finding an applicant ineligible based on a clerical 
review. Therefore, CA raised concerns with the fairness and 
enforceability of the recommendation because it is difficult to prove 
that duplicate applications (1) were willful misrepresentations rather 
than inadvertent, and (2) were actually made by the applicant rather 
than by someone else to discredit or penalize the applicant.
    This recommendation remains open between OIG and CA. OIG 
recommended this again in a more recent review concerning the Consular 
Fraud Prevention program.\1\ OIG will continue to review this 
recommendation in light of improvements and new technologies.
---------------------------------------------------------------------------
    \1\ See OIG report, Management Review of Visa and Passport Fraud 
Prevention Programs (ISP-CA-05-52), issued in November 2004.
---------------------------------------------------------------------------
Standards to Determine High School Equivalency
    OIG recognized that the worldwide managerial direction for the 
Diversity Visa program needed tightening for adjudicating visa 
eligibility based on educational requirements. At the time of our 
review, some posts indicated that they had not evaluated local school 
systems to determine their equivalency to a U.S. high school degree and 
could not locate any Department cable or e-mail guidance on educational 
determinations. Embassies and consulates responsible for adjudicating 
third-country national applications described documents as unreliable 
and nearly impossible to check. Officers did not know third-country 
documents quite as well as their host country documents and typically 
could not determine the reliability of those documents.
    OIG recommended that CA issue standards for determining whether 
foreign high school educations are comparable to U.S. high school 
educations. In 2004, CA began purchasing and distributing copies of the 
handbook, Foreign Educational Credentials Required for Consideration of 
Admission to Universities and Colleges in the United States. At that 
time, CA indicated that all Diversity Visa-issuing posts abroad would 
eventually receive this reference book, which translates and 
standardizes foreign educational credentials. Recently, CA distributed 
the reference books to all Diversity Visa-issuing posts. OIG considers 
this recommendation as resolved and intends to close it once formal 
instructions for using the books are established.

Annual Report on Diversity Visa Trends
    In reviewing the work at several posts, OIG identified challenges 
that consular officers face in adjudicating applications. At the time 
of OIG's fieldwork, all missions were asked to comment on the Diversity 
Visa program, if relevant, in their annual Consular Package 
submissions. OIG observed that consular officers reported data. 
However, CA did not prepare and disseminate analyses on the Diversity 
Visa regional and worldwide trends. For example, although the Consular 
Package's annual statistics report provided useful issuance information 
by nationality and eligibility, this data was not reviewed and 
summarized for managing the program.
    OIG recommended that CA prepare an annual report on regional and 
worldwide Diversity Visa trends and program issues. As a result, CA 
issued summary reports in September 2004 and February 2005; therefore, 
OIG closed this recommendation.

Antifraud Field Investigations
    Fraud is an ongoing major program issue. Antifraud activities are 
generally dominated by nonimmigrant visa fraud cases. Our 2003 review 
determined that many embassies and consulates with significant 
Diversity Visa issues did not routinely refer problem cases to their 
antifraud units. In fact, although every mission has a designated Fraud 
Prevention Officer, some missions have no separate antifraud units. CA 
was unable to document a strategy for overcoming the fact that certain 
countries' records, including school records, are under such poor 
control that their passports, identity documents, and vital records are 
unreliable for visa purposes, despite complaints of several embassies.
    OIG recommended that CA determine whether antifraud field 
investigations are useful in Diversity Visa cases. CA responded by 
canvassing the top ten Diversity Visa posts in the summer of 2004 to 
collect information on Diversity Visa fraud prevention strategies. 
Based on this survey, CA prepared and sent to the field in October 2004 
excellent guidance on Diversity Visa fraud prevention strategies and 
tools. Therefore, this recommendation is closed.

Making the Diversity Visa Program Self-Financing
    Unlike other visa applications, the current Diversity Visa 
processing fee is collected only from applicants selected as winners. 
Millions of applicants, therefore, pay nothing to participate in the 
program, and traditionally, the U.S. government has paid all costs not 
covered by the Diversity Visa fee. Under the paper-based Diversity Visa 
system, CA determined that charging a small fee for registration was 
impractical, not cost effective, and not likely to serve as an adequate 
deterrent against multiple registrations.
    Due to program costs significantly exceeding revenues, OIG 
recommended that CA request authority to collect processing fees from 
all persons applying for the Diversity Visa program. In response, CA 
revised the Diversity Visa surcharge, effective March 8, 2005, from 
$100 to $375. This processing surcharge is imposed on winners of the 
Diversity Visa program. Although only charged to winners, the fee will 
be sufficient to cover all program costs. In view of this, OIG is 
closing this recommendation.

Diversity Visa Fraud Prevention
    At the time of our 2003 review, OIG determined that CA could do a 
better job identifying all costs associated with the Diversity Visa 
program from overseas posts, especially with regard to the cost of its 
fraud prevention efforts. OIG recommended that CA determine how the 
Diversity Visa fee could be appropriately devoted to antifraud work at 
overseas missions.
    In fiscal year 2004, the budget for the Diversity Visa Program was 
$4.287 million, of which just over $1 million was attributed to anti-
fraud activities worldwide. To underscore the importance of the 
Diversity Visa program, in future allocations, CA intends to emphasize 
the need to include fraud expenses in their Diversity Visa funding 
requests as a separate item. OIG considers this recommendation as fully 
implemented and, therefore, closed.

Expertise for Strengthening the Diversity Visa Administrative 
        Processing
    When OIG began its review of the Diversity Visa program, there was 
no antifraud officer position at the Kentucky Consular Center. This 
lack of expertise made reviewing applications for fraud implications 
overwhelming, especially under the old paper-based system. Moreover, 
the Kentucky Consular Center had been receiving inquiries from 
Diversity Visa applicants to discuss their applications. As a result, 
OIG recommended that CA conduct workload studies to determine whether a 
full-time visa officer position and a language-designated telephone 
inquiry position should be established at the Kentucky Consular Center.
    In response, CA established and hired a fraud prevention manager 
and two assistants for the Kentucky Consular Center, thus eliminating 
the need for a full-time visa officer. OIG believes that Diversity Visa 
fees can fund these positions. However, with regard to the language-
designated telephone inquiry position, CA determined that no 
predominating language exists among Diversity Visa applicants, other 
than English. CA believes that the Public Inquiries division 
sufficiently handles stateside inquiries received by telephone, letter, 
and e-mail as well as providing Diversity Visa information on the 
Department's web site. Posts abroad handle case-specific inquiries. 
Therefore, CA believes that language staffing either at the Kentucky 
Consular Center or at the National Visa Center is unnecessary. In light 
of these actions, OIG closed the recommendation.

                              CONCLUSIONS

    During her visit last month to the Kentucky Consular Center, our 
consular inspector determined that, with the online filing of Diversity 
Visa applications now in its second year, all Diversity Visa enrollment 
applications are checked for duplicates using anti-fraud technology. 
Duplicates found at this step are disqualified. Winning entries 
selected from the remaining applications are checked for duplicate 
enrollment using facial recognition technology and bio-data comparison. 
However, the potential for fraud does not end with identifying 
duplicates. The Kentucky Consular Center flags fraud indicators for 
adjudicating officers to address when winning applications are further 
processed in the field. Although E-DV has not stopped duplicate filing, 
it has made identifying duplicate applications easier and helped the 
adjudicating officers have more effective interviews. As a result, CA 
is able to identify an increasing number of duplicates. OIG believes 
that continued advances in technology will increase detection of 
duplicates but will not stop duplicate electronic filings.
    In closing, OIG believes that in the process of complying with the 
recommendations of our 2003 report, CA has strengthened the Diversity 
Visa program. OIG will continue to monitor the program, as we inspect 
CA's management of consular operations and individual posts abroad, to 
oversee and assist the Department in improving both border security and 
program management.
    Thank you Mr. Chairman. I welcome your questions and those of other 
members.

    Mr. Hostettler. Thank you, Mr. Krongard.
    Mr. Krikorian.

  TESTIMONY OF MARK KRIKORIAN, EXECUTIVE DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Krikorian. Thank you, Mr. Chairman. I appreciate the 
invitation.
    I am afraid that my comments will not be as interesting as 
the testimony yesterday from outer space that a couple Members 
of this body were able to hear, but I will do my best.
    The visa lottery is a fatally flawed program. There are in 
fact as many problems with mismanagement as there are with much 
of the other elements of the immigration system, and problems 
like that could at least in theory be fixed by reforms. But the 
administrative problems, as important as they are, are 
secondary. It is the existence of the program that is the main 
problem because the visa lottery does not serve any national 
interest. And it should be discontinued. And let me touch 
briefly on some of the reasons I think that.
    Despite its name, the diversity lottery has done nothing to 
diversify the immigrant flow. Mr. Morrison conceded that it is 
impossible for it to diversify the immigration flow. And yet 
that is the clear rationale for many people's support of it. It 
can never be expected to diversify the flow. The top ten 
immigrant-sending countries still account for the majority of 
new arrivals just as a they did a decade ago. In fact, if you 
look at the existing immigrant population, the very time that 
the lottery has been operating, the existing immigrant 
population has been getting steadily less diverse. In 1990, 
Mexicans, the largest national origin group, were 22 percent of 
all immigrants. In 2000, they accounted for 30 percent of all 
immigrants. When you put all of Spanish-speaking Latin America 
together, one cultural group, they went from 37 to 46 percent 
of the total immigrant population; something we have never 
experienced in American history. Only a 30-, 40-, 50-fold 
increase in admissions under this program would make even a 
dent in the diversity of the immigration flow. And if national 
origins quotas are what this is about, we should just embrace 
them and stop pretending that we are trying to diversify the 
flow and institute open national origins quotas. I think that 
is a bad idea, but that is essentially what this is about.
    Furthermore, the requirements for entering the lottery are 
so low as to be essentially meaningless. By design, they do not 
select the best and brightest from overseas that have the 
skills that are important to a modern society. Nor in my 
opinion would an increase in the nominal skills, levels of 
education and what have you that applicants would need to have 
make much difference because of the pervasive nature of fraud 
in the program.
    And the fraud problem is systemic. It is not something that 
really can be alleviated or at least ended with better 
management. The systemic nature of the fraud is for two 
reasons. One, the State Department has an unavoidable 
institutional bias against law enforcement in favor of 
diplomacy, and that is essential. And weeding out fraud is a 
law enforcement function. That could be alleviated conceivably 
by transferring the visa function to the Homeland Security 
Department, but that is something that Congress decided not to 
do.
    The second reason that fraud is systemic is that lottery 
applicants come from the most corrupt nations in the world, 
objectively judged by people who do that sort of thing, and 
they have no U.S. family member or no U.S. institution to vouch 
for them or to help demonstrate their legitimacy as do family 
members or people being sponsored for jobs who also come from 
countries where corruption is widespread.
    The idea of basing eligibility for immigration to the 
United States principally on a paper document issued in Nigeria 
or in Bangladesh or in Albania is absurd on its face.
    The fraud is bad enough, of course, in the abstract, but 
after 9/11, this poses a serious security threat. First of all, 
it is a diversion for the State Department, a diversion of time 
and resources from people who are supposed to be attempting to 
screen terrorists and others out of those who are trying to 
come to the United States. And the lottery composes a large 
portion of the work in a number of important consular posts.
    Nor does it draw people randomly from around the world. It 
disproportionately draws people from the Islamic world, the 
very countries where al-Qaeda is active. And I have some 
statistics on that in my statement.
    This is not theoretical. As you said, Mr. Chairman, there 
are actual terrorists who have come in through the lottery 
program. Actually, you missed a couple. Karim Koubriti and 
Ahmed Hannan, who were members of the Michigan sleeper cell, 
were Moroccan lottery winners. The very fact that it encourages 
immigration of people who have no family or other connections 
in the United States makes it ideal for someone planning an 
attack.
    There are other ways to get here. For instance, temporary 
visas and what have you, but a greencard enables a terrorist to 
do a lot more than a temporary visa would. And the real 
vulnerability is not simply in the process that the Kentucky 
service center deals with, the initial application. The 
security vulnerability especially comes from the final 
application process where the winning numbers can and in fact 
according to the State Department have been sold to people who 
did not actually apply; and this gives al-Qaeda or any other 
bad guys attempting to enter the United States an opening.
    And let me say just finally, this really is not about even 
the level of immigration. I have concerns about the level of 
immigration, but even if you think that we need 50,000 extra 
people each year entering the United States, it would seem both 
common sense and morally imperative to simply take the next 
50,000 husbands, wives and little kids of legal, permanent 
residents rather than take complete strangers who have no 
family, no skills and no jobs in the United States. I will end 
there and be happy to answer questions.
    [The prepared statement of Mr. Krikorian follows:]

                  Prepared Statement of Mark Krikorian


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Thank you, Mr. Krikorian.
    Ms. Jenks.

TESTIMONY OF ROSEMARY JENKS, DIRECTOR OF GOVERNMENT RELATIONS, 
                           NumbersUSA

    Ms. Jenks. Mr. Chairman, Members of the Subcommittee, thank 
you for the opportunity to testify today about the Visa Lottery 
Program.
    NumbersUSA is a grassroots organization representing 
830,000 Americans who are concerned primarily with 
immigration's impact on American workers and on quality-of-life 
issues. These are folks who see the impact of our current 
immigration policy in their community every day. Their kids 
attend over-crowded schools. Their local emergency room is on 
the brink of bankruptcy. Many of them are unable to find a job 
that pays a livable wage, and those who are employed find their 
commutes getting longer and longer as roads become increasingly 
congested.
    Imagine how these folks feel when they find out that the 
United States government by law holds a national-origins-based 
lottery each year to hand out 50,000 visas to randomly selected 
winners. I can assure you that the American people did not call 
their representatives in Washington one day and demand that a 
visa lottery be set up.
    I think it is also safe to say that the spouses and 
children of lawful permanent residents who must wait at least 4 
years for a visa based on current processing times did not 
demand it either.
    So who did demand it? I think Congressman Morrison answered 
that question in 1990 when he said, ``It is absolutely key to 
political support for our immigration system that all of the 
diverse groups that make up our country know that our 
immigration laws understand their interests and the concerns 
that they have that people from the parts of the world that 
their ancestors come from will also be considered under our 
immigration system.''
    In fact, the lottery was created to benefit a handful of 
ethnic groups led by the Irish. The fact that 40 percent of the 
transition visas were reserved for Irish nationals, although 
the law was carefully worded so as to avoid saying that 
explicitly, is proof of that.
    ``Mr. Chairman, it has always been my understanding that 
the best immigration policy would be a policy that is fair and 
that applies equally to every country. In 1965, the last year 
that we passed a legal immigration bill, the whole point of 
that immigration bill was to make up for past discrimination 
and to come up with a legal immigration bill that would be fair 
and equal to all countries. Here we are today debating a bill 
that is special interest legislation that gives special 
privileges only to individuals from certain countries. I think 
that violates the fairness and equity that we all should expect 
in our immigration laws.''
    Congressman Lamar Smith was referring to the lottery when 
he said those words almost 15 years ago during the floor debate 
on the bill that became the Immigration Act of 1990. And he was 
right. The visa lottery is inescapably and inexcusably a 
national-origins-based policy. It discriminates to the 
detriment of some and to the benefit of others based solely on 
a person's nationality.
    The visa lottery and the transition program leading up to 
it were justified on two grounds. First is the idea that some 
mostly European countries were adversely affected by the 1965 
amendments. In other words, by taking away the privileged 
status of these countries that they had enjoyed prior to the 
1965 act, Congress had discriminated against them, and so we 
now owed it to them to discriminate for them yet again.
    Second is the idea that Congress has a duty to make the 
United States more diverse. The reality is that the United 
States does not need to admit a single additional immigrant to 
ensure increasing ethnic and racial diversity here. It is a 
demographic certainty. But the fact that 52 percent of all 
lottery visas have been awarded to Europeans should be 
sufficient to dispel the notion that true diversity was the 
goal.
    Congressman John Bryant, a former Member of this 
Subcommittee from Texas pointed this out in 1990. ``They say 
that we need to increase diversity. We are already the most 
diverse country in the world. I would ask, how can bringing in 
so many people of the same race as the majority race encourage 
diversity?''
    But even if the lottery did exactly what it purported to 
do, it would still be bad policy. As the bipartisan Jordan 
Commission on Immigration Reform pointed out in its final 
report, immigration policy should serve the national interest. 
That means that we should have clear goals and priorities and 
then design the immigration system to prioritize the admission 
of immigrants who meet those goals. The commission argued that 
in the absence of a compelling national interest to do 
otherwise and as long as an adequate system of protections for 
American workers is in place, immigrants should be chosen on 
the basis of the skills they contribute to the U.S. economy. 
The Jordan Commission found only two national interests 
compelling enough to diverge from this priority: uniting 
nuclear family members and providing safe haven to refugees.
    The commissioners apparently all agreed that the visa 
lottery should not be part of our legal immigration system. In 
fact, only one commissioner, Warren Leiden, disagreed with the 
commission's final report and even he did not mention the 
lottery in his dissent.
    Mr. Chairman, the Immigration and Nationality Act says, 
``No person shall receive any preference or priority or be 
discriminated against in the issuance of an immigrant visa 
because of his race, sex, nationality, place of birth or place 
of residence.''
    Eliminating the visa lottery will bring us one step closer 
to making that law a fact. Thank you.
    [The prepared statement of Ms. Jenks follows:]

                  Prepared Statement of Rosemary Jenks

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Thank you, Ms. Jenks.
    At this point, we will turn to questions.
    Mr. Krongard, in your opening statement, you talked about 
the issue of weeding out the presence of duplicate 
applications, and then at one point, even the recommendations 
that had been made by the OIG to the State Department will not 
necessarily result in the end of duplicates or the use of 
duplicates and the successful use of duplicates in the process. 
And Mr. Krikorian suggested that the problem in the program is 
systemic.
    Can you further elaborate on why you think that this 
program will never achieve the weeding out of the fraud, such 
as duplicate applications, and the successful gaining of visas 
as a result of duplicate applications?
    Mr. Krongard. I think the lead in to your question is 
correct, sir. First of all, we are dealing with very large 
numbers of applications, and there are no restrictions on who 
these applicants can be. For example, people can be making 
application who have no intention whatsoever of ever 
immigrating to the United States. They can be Americans. They 
can be American citizens who are participating in this. They 
can be people from some of these countries who have no 
intention of coming. However, winning the lottery is like a 
winning lottery ticket. As the gentleman from Virginia said, a 
cottage industry has grown up so that there are facilitators 
who make money off of this. There are advisors. There are 
people who, through unlawful means, acquire the winning notice, 
and therefore, there is an inducement that we are never going 
to eliminate. The recommendation that is still open is one that 
would make it at least illegal to reapply after you have been 
caught making multiple entries in 1 year. And that is still not 
dealt with. So there is really not enough disincentive or 
enough technology to eliminate the ability to make multiple 
entries.
    But I might add that, as the CA has definitely made 
improvements, I do not think there is any question about that, 
the technology has gotten better, more duplicate entries are 
being found and eliminated. Part of the problem now is also in 
the winning pool. In other words, there are anecdotal evidences 
of new types of fraud growing up in dealing with the winning 
lottery ticket and what is done with that and issues of who 
actually then comes along.
    For example, we have the issue of what we call pop-up 
families. In other words, an applicant registers as a single 
person, for example, and wins the lottery and, in the course of 
applying for the visa with the winning lottery, now has a 
family. That is not on its face inappropriate. Under the 
regular immigration rules, to have a change, a significant 
change in your family life might put you into a different 
category, but there is only one category for diversity 
applicants. And therefore, if the reasons are correct and there 
is a true change that cannot be proven to be fraudulent, we 
have situations where a one-person enrollee becomes say a 
three- or four-person immigrating family.
    Mr. Hostettler. Interesting.
    Mr. Krikorian, what do you think is the single biggest 
vulnerability to the program or to the visa lottery scheme in 
general?
    Mr. Krikorian. I would have to say the very concept of 
artificially stimulating immigration of people with no 
connections to the United States from the most corrupt 
countries in the world is, in other words, the center of the 
visa lottery, the whole concept of the visa lottery is the 
greatest vulnerability. I do not see any specific vulnerability 
or weakness that we could patch up that would make it 
significantly less problematic. I mean, it is bailing out the 
Titanic. It sinks a little slower, but it is a problem on its 
face.
    So I would have to say, stimulating immigration of people 
with no connection to the United States for no good reason, not 
to promote any specific national interest, is the central 
problem with the visa lottery.
    Mr. Hostettler. Do you have suggestions of how to address 
those in a reform?
    Mr. Krikorian. Getting rid of the visa lottery. That is my 
point. This is not something that can be reformed. It has got 
to be eliminated. Again, I would emphasize. I would prefer 
these 50,000 visas simply not be issued, but a less radical 
change would be simply to divert them to family category which 
actually does serve at least conceivably some national 
interest.
    Mr. Hostettler. Thank you.
    The Chair now recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for purposes of an opening statement and 
questions.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Let me acknowledge a Member of my Committee, Mr. Berman. I 
thank him for his commitment to these issues and the Members of 
this Committee. This is an important hearing.
    I just left a Homeland Security hearing, Mr. Chairman, and 
I thank you for your indulgence. We are overlapping hearings, 
and we were in the middle of intense questioning on the issue 
of the potential of terrorist acts against chemical plants. And 
one report suggests that that could wind up killing 2.4 million 
persons in a densely populated area. I make that anecdotal 
story because it appears that, on many occasions, we have taken 
immigration to be equated to terrorism. And this hearing, I 
hope, will shed some light on a very viable program and also 
give us some impetus for what I think many of us have a common 
commitment to, and that is a comprehensive look at immigration 
and the comprehensive reforming of the immigration policies in 
America, those that will respect the founding basis of this 
nation, that we are a land of immigrants and of laws.
    I want to congratulate Mr. Morrison on his vision on the 
Diversity Visa during his tenure here in the United States 
Congress.
    The United States has tried several different systems for 
distributing immigration visas, and a national origins quota 
system favored immigrants from Europe at the expense of 
immigrants from other regions. In 1965, Congress replaced the 
national origins quota system with a system of family-based and 
employment-based immigration and a per-country limit. This does 
not distribute visas evenly either.
    During the next 20 years, immigrants from Asia, Latin 
America outnumbered immigrants from other parts of the world. 
The next attempt to balance immigration from around the world 
produced a series of piecemeal lottery programs, and lotteries 
made it possible for immigrants from under-represented 
countries to obtain visas. This was followed by a permanent 
lottery system, the Diversity Visa program that is the subject 
of this hearing.
    I think a year or two ago, we listened to a young man from 
Kenya who told a passionate story, a moving story about his 
opportunity to come to the United States on the basis of the 
Diversity Visa. It was established by the Immigration Act of 
1990.
    Diversity Visas are limited to six geographic regions with 
a greater number of visas going to regions that have low rates 
of immigration. The Diversity Visa program does not provide 
visas for countries that have sent more than 50,000 immigrants 
to the United States in 5 years. Applicants for Diversity Visas 
are chosen by a computer-generated random lottery drawing. The 
winners who qualify for immigrant visas and are eligible to 
admission to the United States are granted legal permanent 
resident status.
    To qualify, an applicant must have completed 12 years of 
formal education, the equivalent of graduating from a United 
States high school, or 2 years of qualified work experience. 
When Diversity Visa aliens apply for admission to the United 
States, they receive the same inspection that other immigrants 
receive.
    I would hesitate to say that these are not individuals that 
cannot come here and provide for themselves and be contributing 
to our society.
    In September 2003, the Office of the Inspector General for 
the Department of State issued a report on Diversity Visas. 
According to the report, the Diversity Visa program was subject 
to widespread abuse. Despite a rule against duplicate 
submission, thousands of duplicates were detected each year. 
Identity fraud was endemic, and fraudulent documents are 
commonplace.
    The report recommended barring aliens from states that 
sponsor terrorism, permanently barring adult aliens who submit 
multiple applications, and making the program self-financing by 
charging every applicant a fee, instead of just charging 
applicants who win the lottery, which is in the present system.
    The charge to winners is $350 per person. A much lower fee 
would be possible if every applicant had to pay a filing fee. 
The State Department has tried to work on this issue as it has 
converted from paper to electronic applications. It has 
required each applicant to submit an electronic photograph. The 
new process went into effect for the FY 2005 lottery program. 
The electronic system has made it possible to do much more 
comprehensive screening for duplicate applications.
    Mr. Chairman, I think it is important to note that there 
has been some progress in using the electronic format, and I 
think we should give this program greater opportunity. The last 
report by Deputy Inspector General Anne W. Patterson on April 
29, 2004, she testified that the State Department had made 
progress in reducing fraud and vulnerabilities by introducing a 
facial recognition system.
    So I would hope that we all express our concern in the 
right direction for fighting terrorists and that we find a way 
to cut down on fraud. In fact, Mr. Chairman, we note that there 
is fraud in the Social Security card. But I would hope that we 
would see the viability of the Diversity Visa program and hope 
to fix it and not to end it.
    With that, Mr. Chairman, I would like to pose questions to 
the congressman for a time, and as I do so, Congressman 
Morrison, let me cite for the record that I have been given an 
overall gleaming affirmation of my commitment, Americans for 
Better Immigration. And I am so glad that I do not have to show 
this report card to my mother. But if I showed it to her, I 
could explain it to her, and I could assure you that she would 
be applauding me for understanding this nation. This is a bunch 
of F's and D's as relates to immigration, and distorted I might 
suggest. Distorted, misconstrued and false.
    But I think it is important that we get a full 
understanding of what the visa program is. So could you briefly 
say to me whether and how you try to thwart fraud? In 
particular, would you respond to Ms. Jenks' comments, the visa 
lottery is a blatant example of a special interest driven 
approach to policy making?
    Mr. Morrison. Congresswoman Jackson Lee, first of all, I am 
pleased to be here and to answer your questions. Let me say 
that, of course, special interest is always in the eye of the 
beholder. The things we do not like are special interests. The 
things we support are national interests, and of course, we 
will always be debating that. That is the nature of politics.
    At the heart of the decision to create a program like this 
is a recognition that things that on the surface do not 
discriminate or do not give some people better opportunities 
than others, when you look below the surface operate a 
different way. The fact is that who it is that comes under 
family- and employment-based systems has its own special 
choice-making mechanisms and networking mechanisms that favor 
some people from some parts of the world over people from other 
parts of the world. The fact that we developed an immigration 
system that never opened the door to Africans to immigrate has 
a lot to do with our history with respect to Africa. And it 
certainly was one of the things that cried out to me at the 
time that we were considering these questions.
    The same is true of the Soviet Union and other parts of 
what were the Warsaw Pact countries where people did not get to 
immigrate here and never created the employment flows, the 
networks of employment, nor the family relationships. So what 
this is is not an attempt to undo what exists in the other 
parts of the immigration system. It is an alternative route, 
and I think it accomplishes an alternative route.
    And yes, there are--there have been in the administration 
of the program opportunities for fraud. And it seems to me that 
the State Department has been innovative in finding ways to 
fight that. And in fact, some of their identity verification 
schemes, their value goes far beyond the lottery program but to 
other immigration programs and other screening programs. And I 
think that is a benefit that has come from the existence of 
this program and should continue to be used.
    But the program itself is not the source of fraud, and the 
program itself is not incapable of being operated in a 
relatively effective manner.
    Ms. Jackson Lee. Let me ask you just quickly about the 
question that Mr. Krongard suggested about fraud and these pop-
up immigrants if you will, pop-up family members. How do you 
respond to that?
    Mr. Morrison. Well, the possibility of pop-up families 
exist in all immigration categories. People get approved, and 
at the time that they apply for a visa, not when they get 
qualified initially through their family relationship or their 
employment or through the lottery, when they get to the point 
of applying for a visa, they can offer up accompanying or 
following to join family members that they claim to be related 
to. And that is a problem in immigration. And it has to be 
dealt with in every case, and it has to be dealt with as an 
area where there could be fraud, in which the relationship has 
to be examined. So it is not a problem with the diversity 
program. It is a problem with the fact that people are entitled 
to bring their families when they come to this country, whether 
as family members to someone else already here or to an 
employee for a company that is here.
    Ms. Jackson Lee. So you are saying that diversity visas 
should not be singled out because it plagues all levels of 
immigration, which we are all trying to work to decrease the 
fraud in all levels of our immigration system.
    Mr. Morrison. I do not know whether it plagues this more 
than others. The fact is that you can abuse our immigration 
system. Any system that allows people to travel here to the 
United States, to move here to the United States, there are bad 
people in the world who will try to misuse it. If we want to be 
totally safe, we can close the door or try to. But the fact is 
that if we are going to have the kind of open door that has 
served the country well for its history, then we will have to 
work on the anti-fraud side rather than to destroy the programs 
that bring people here.
    The fact is, people are talking about these folks who are 
coming without connection. For most of our history, most of the 
immigrants who are the forebearers of many of the people 
sitting in this room came on a self-selected basis who did not 
have a reason other than the reason they had in their hopes and 
their dreams to come here. So these people are not that 
different from the people who built America.
    Mr. Hostettler. I thank the gentlewoman.
    The Chair recognizes the gentleman from Virginia, Mr. 
Goodlatte for 5 minutes.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Congressman Morrison, welcome back to the Subcommittee that 
you once chaired. When you were doing that in the 1980's, I was 
practicing immigration law, and I assisted people from more 
than 70 countries to immigrate to the United States. So my 
purpose here is not anti-immigration. I do have views about 
many aspects of our current immigration system. I believe both 
our legal and illegal immigration problems are in need of 
addressing in many, many areas but most especially in this 
area.
    When you talk about the creation of diversity, I have a 
problem with that because the fact of the matter is that 
countries from virtually every continent, including Africa, 
have been excluded from participation in this program at 
various times. Nigeria, for example, has in some years, because 
of the volume of the immigration from Nigeria, been excluded 
from participation. And I have a real problem telling someone 
from Nigeria who has a close family member or who has a job 
skill that is needed in the United States and has a direct 
contact with somebody in this country, that they are entitled 
to watch somebody from Kenya or Sierra Leone or some other 
African country bypass that entire process and, much more 
rapidly than they are able to do, come into this country on a 
visa with very skimpy information. We know far less about them 
because they do not have those family ties. They do not have 
those job skills, that contact with an employer in the country, 
and I just wonder how you justify telling that person from 
Nigeria or from Mexico--the last time we had a hearing on this 
there was an Asian-American who testified about the 
discrimination against Chinese applicants. There is 
discrimination again Europeans because sometimes Great Britain 
is on this list, and they are excluded from being able to 
participate, that somehow this is a fair system based upon our 
system of fairness and justice for people coming to this 
country from around the world.
    Mr. Morrison. Our system is not fair, meaning that each 
person gets to be at the head of the line when they would like 
to be at the head of the line.
    Mr. Goodlatte. Do you not think that immigration should be 
a two-way street, that the national interests of the United 
States in seeking family reunification, in seeking employment 
skills that are needed in this country is a part of the process 
of determining who should come in here and not simply giving a 
visa to somebody because they put their name in a hat or, in 
this case, a computer, and they were lucky enough in a 1-out-
of-100 or a 1-out-of-200 chance to have their name drawn while 
other people are on the sidelines from many, many countries 
that have----
    Mr. Morrison. If the gentleman would yield.
    Mr. Goodlatte. I will yield again.
    [4:57 p.m.]
    Mr. Morrison. We do all of those things. That is, we 
bring--most of the people who come to the United States come 
through those two channels that you have just described. And it 
is a matter of opinion. Reasonable people can differ as to 
whether there ought to be this other channel.
    But on the question of fairness, on the question of 
fairness which is where you started, the fact is that if you 
want fairness for immediate families then you ought to do what 
was in the House version of the Immigration Act of 1990, which 
is to treat immediate families, minor children and spouses, as 
immediate relatives and reunify those families immediately.
    Our failure to do that----
    Mr. Goodlatte. Reclaiming my time.
    Mr. Krikorian, who I agree with in terms of wanting to take 
these visas off the list because they serve no interest, 
pointed out that we could also use these visas for that very 
purpose. The bill that I have introduced that Mr. Smith co-
sponsored, Congresswoman Herseth co-sponsored, does not do 
that, but it is a step in the right direction of ending what I 
think is an unfair practice.
    Let me get in one more question--I see my light has turned 
yellow--to Mr. Krongard, and that is--I would ask you if you 
can tell me this. No matter what security precautions we take 
with this visa lottery program, there will always be relatively 
easy opportunities for terrorists to exploit the program; and I 
would argue that the inherent dangers of the program outweigh 
the merits. Do you believe that the program still contains 
serious risks to national security by the entry of terrorists 
or foreign intelligence officers?
    Mr. Krongard. As I say in my written statement, we do 
continue to believe that. There are improvements that have been 
made. It is an open question as to how far the technology and 
the efforts by CA can go to really reduce to a satisfactory 
level that risk. The risk does continue. Whether it outweighs 
other things, I couldn't address that.
    Mr. Goodlatte. Thank you. Thank you, Mr. Chairman.
    Mr. Hostettler. The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Smith, 
for purposes of questions.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Krongard, as I recall, in your written testimony you 
recommended that the visa lottery program be reformed and that 
we do not admit individuals from terrorist-sponsoring 
countries. As I understand it, something like 18 percent of all 
the visa lottery applicants have come from both terrorist-
sponsoring countries and countries that are sort of on our 
watchlist. That is a significant number. Would you be 
comfortable with that recommendation that you made in regard to 
terrorist-sponsoring countries extending to watch countries as 
well, where we either give them extra scrutiny or not admit 
them?
    Mr. Krongard. That recommendation was deemed to be closed 
and satisfied by the response from CA, which was that they did 
not want to be in a position to prevent people fleeing 
oppression in countries like Cuba or Libya or Syria or Iran to 
make them ineligible for visa through the diversity visa 
program; and it would have taken statutory change to permit 
that. So while that recommendation was made, the response from 
our perspective being just dealing with compliance and 
implementation of a program rather than the policy and wisdom 
of the program, we deemed that that was a satisfactory 
response.
    Mr. Smith. Thank you.
    Let me direct my next question to Mr. Morrison, but on the 
way there say that Ms. Jenks almost embarrassed me by reminding 
me that it has been 15 years that I have been involved in the 
immigration reform business. Mr. Morrison could have 
embarrassed me by reminding us that while he was Chairman of 
the Immigration Subcommittee I was his Ranking, but I will 
bring it up myself as sort of going on the offense before I 
have to go on the defense.
    Mr. Morrison, would you be willing to reform the system--my 
light is sort of blinking here--reform the system to the point 
where we do not admit individuals from terrorist-sponsoring 
countries? I know that is a small percentage, but would you be 
comfortable with that change?
    Mr. Morrison. I think that is a consideration.
    I would also think that----
    Mr. Smith. Would you support it?
    Mr. Morrison. Well, I want to qualify it a bit, as you 
would expect. I think that it is a complicated question, 
because many of these people are applying outside of those 
countries. They are in fact--this is a--as all of our 
immigration quota system works, it depends on where you were 
born, not where you are. So the question of whether somebody is 
tainted by birth, but--it raises some questions. So I would 
think about it more broadly as to from where they are applying, 
and that might be an appropriate disqualification.
    Mr. Smith. Okay. Ms. Jenks, you don't want to reform the 
system. You want to eliminate the system, as does Mr. 
Krikorian. Why do you say it is bad policy and why do you say 
it is contrary to the national interest to have such a program?
    Ms. Jenks. Well, first of all, it is a national-origins-
based system. I mean, there is no way to get around that. You 
are only eligible if you are from certain countries that are on 
the list.
    The second thing is that it doesn't serve a national 
interest. These are, again, people who are not connected to the 
United States in any way. There is no particular reason to 
bring them here except for immigration for the sake of 
immigration. Maybe when we were still developing the west that 
would have been a justifiable reason, but it is not today when 
there are people in line who have spouses and minor children 
who have been waiting for years, when we have got employment-
based immigrants now at the unskilled level at least waiting, 
and we have saturated our low-skill labor market here, and 
these are more people coming in with a high school--the 
equivalent of a high school degree. They are just not needed 
here.
    Mr. Smith. A few minutes ago, I think Mr. Goodlatte pointed 
out that this doesn't really contribute to diversity. Why do 
you think the lottery visas do not contribute to diversity? And 
Mr. Krikorian, if you could answer the same question.
    Ms. Jenks. Well, the numbers--the statistics on the lottery 
winners show that 52 percent of them are European. We don't 
have a shortage of white people in this country. That is not 
additional diversity. There is a significant number of Africans 
coming in, which does put Africans above their historical level 
of immigration. But is that justification enough to bring in a 
whole bunch more white people from Europe? It just doesn't seem 
like that is diversity. And if you are talking about 50,000 
visas in a flow of a million-plus legal immigrants and maybe 
another million illegal immigrants, you are not going to get to 
diversity.
    Mr. Smith. Thank you.
    Mr. Krikorian.
    Mr. Krikorian. The numbers that I cited clearly show that 
it is not having an effect on diversity. In other words, that 
the immigrant flow and the immigrant stock already here aren't 
getting more diverse, more mixed. In fact, quite the opposite 
is what seems to be happening.
    But I am--frankly, I am uncomfortable with the very idea 
that there aren't enough people of whatever kind coming in or 
too many people of whatever kind. I mean, this is national 
origins thinking. And if we want to do that, if we think that 
we need to have more Africans or more eastern Europeans coming 
in, I think let us start setting quotas. I don't like that 
idea. But as Lincoln said a long time ago in a different 
context, he said: I prefer to move to Russia where they take 
their despotism pure and unalloyed by hypocrisy.
    Let us say what we are doing or let us not do it and try to 
stick to a neutral and ethically and racially neutral 
immigration system.
    Mr. Smith. Thank you.
    Mr. Chairman, may I have the time to ask one more question?
    Mr. Hostettler. Without objection.
    Mr. Smith. Thank you.
    Mr. Krikorian, another question now. This is a little bit 
unfair. I noticed in your testimony that you use the phrase 
``jobs Americans won't do.'' That is not the subject of today's 
hearing, but I would like to have your opinion as to whether 
there are jobs Americans won't do.
    Mr. Krikorian. There is no such thing as work that won't 
get done without immigration. It is economic gibberish. The 
fact is that there may be a specific number of jobs that would 
shrink without immigration, but that would mean that to----
    Just to pull a simple example out of the air. Instead of 
five landscapers with shovels, you would have one landscaper 
with a little bobcat frontloader. So, in that case, those four 
extra jobs may well be jobs that Americans won't do, but the 
work gets done by a smaller number of more productive, highly 
paid American or legal immigrant workers.
    Mr. Smith. Thank you, Mr. Krikorian.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman from Texas for his 
keen eye on that issue.
    The Chair now recognizes the gentlelady from California, 
Ms. Waters, for 5 minutes.
    Ms. Waters. I thank you very much, Mr. Chairman.
    I really don't have a statement. I need to learn a lot more 
about the diversity visas. Of course, I have raised some 
questions in the past about places that I understand have met 
the quota of--I don't know what the quota is. But there are 
quotas that have been established, like places like Haiti who 
have a quota, met the quota in the United States, are not 
eligible for the diversity visas. Is that correct?
    Mr. Hostettler. If the gentlelady would yield, I am not 
exactly sure of the individual countries, but that can be the 
case.
    Ms. Waters. Well, then what I need to do is find out more 
information. I am particularly interested in the Caribbean and 
Africa, and I need to find out which of these countries----
    Mr. Goodlatte. Would the gentlelady yield?
    Ms. Waters. Yes.
    Mr. Goodlatte. I thank the gentlelady for yielding.
    The countries--I will list them off for you, because this 
is a very interesting--and it is very diverse across the world. 
These countries are not eligible to participate in this year, 
and every year it can change. But Canada, China, Colombia, 
Dominican Republic, El Salvador, Haiti, India, Jamaica, Mexico, 
Pakistan, Philippines, Russia, South Korea, United Kingdom--
except Northern Ireland, and Vietnam.
    Now each year that changes. Some years, for example, 
Nigeria has been on that list as well excluded from 
participation, I would say discriminated against in 
participating. So to answer your question, Haiti is on the list 
this year. They cannot participate.
    Ms. Waters. Thank you very much. I yield back.
    Mr. Hostettler. I thank the gentlelady.
    I want to thank once again the members of the panel for 
your presence and your testimony and assistance in this very 
important issue. All Members are instructed that we have 5 
legislative days to make additions to the record.
    The business before this Subcommittee being completed, we 
are adjourned.
    [Whereupon, at 5:08 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
   Congress from the State of Virginia, and Member, Subcommittee on 
                Immigration, Border Security, and Claims

    Mr. Chairman, thank you for holding this important oversight 
hearing.
    The visa lottery program was created to bring foreign nationals 
into the United States from countries that have sent fewer immigrants 
in the past. This program awards permanent resident visas based on pure 
luck and threatens national security, results in the unfair 
administration of our nation's immigration laws, and encourages a 
cottage industry for fraudulent opportunists.
    Each year, the visa lottery program grants approximately 50,000 
foreign nationals ``permanent resident'' status. Because winners of the 
visa lottery are chosen at random, the visa lottery program presents a 
serious national security threat. A perfect example of the system gone 
awry is the case of Hesham Mohamed Ali Hedayet, the Egyptian national 
who killed two and wounded three during a shooting spree at Los Angeles 
International Airport in July of 2002. He was allowed to apply for 
lawful permanent resident status in 1997 because of his wife's status 
as a visa lottery winner.
    The State Department's Inspector General has even weighed in on the 
national security threat posed by the visa lottery program. In his 
testimony, the Department of State's Inspector General states that the 
Office of Inspector General ``continues to believe that the Diversity 
Visa program contains significant risks to national security from 
hostile intelligence officers, criminals, and terrorists attempting to 
use the program for entry into the United States as permanent 
residents.'' Even if improvements were made to the visa lottery 
program, nothing would prevent terrorist organizations or foreign 
intelligence agencies from having members apply for the program who do 
not have criminal backgrounds. These types of organized efforts would 
never be detected, even if significant background checks and counter-
fraud measures were enacted within the program.
    Usually, immigrant visas are issued to foreign nationals that have 
existing connections with family members lawfully residing in the 
United States or with U.S. employers. These types of relationships help 
ensure that immigrants entering our country have a stake in continuing 
America's success and have needed skills to contribute to our nation's 
economy. However, under the visa lottery program, visas are awarded to 
immigrants at random without meeting such criteria.
    In addition, the visa lottery program is unfair to immigrants who 
comply with the United States' immigration laws. The visa lottery 
program does not expressly prohibit illegal aliens from applying to 
receive visas through the program. Thus, the program treats foreign 
nationals that comply with our laws the same as those that blatantly 
violate our laws. In addition, most family-sponsored immigrants 
currently face a wait of years to obtain visas, yet the lottery program 
pushes 50,000 random immigrants with no particular family ties, job 
skills or education ahead of these family and employer-sponsored 
immigrants each year with relatively no wait. This sends the wrong 
message to those who wish to enter our great country and to the 
international community as a whole.
    Furthermore, the visa lottery program is wrought with fraud. A 
report released by the Center for Immigration Studies states that it is 
commonplace for foreign nationals to apply for the lottery program 
multiple times using many different aliases. In fact, 364,000 duplicate 
applications were detected in the 2003 visa lottery alone.
    In addition, the visa lottery program has spawned a cottage 
industry featuring sponsors in the U.S. who falsely promise success to 
applicants in exchange for large sums of money. Ill-informed foreign 
nationals are willing to pay top dollar for the ``guarantee'' of lawful 
permanent resident status in the U.S.
    The visa lottery program is also by its very nature discriminatory. 
The complex formula for assigning visas under the program arbitrarily 
disqualifies natives from countries that send more than 50,000 
immigrants to the U.S. within a five-year period. For the 2006 
application period, nationals from countries such as Mexico, Canada, 
China, the Dominican Republic, El Salvador, Haiti and others were not 
allowed to participate in the visa lottery program.
    The visa lottery program represents what is wrong with our 
country's immigration system. That is why I introduced H.R. 1219, the 
``Security and Fairness Enhancement (SAFE) for America Act.'' This 
much-needed legislation eliminates the controversial visa lottery 
program to enhance national security, reduce fraud and opportunism and 
restore fairness to our immigration system.
    Thank you again, Mr. Chairman, for holding this important hearing.

                               __________
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    The United States has tried several different systems for 
distributing immigrant visas. A national origins quota system favored 
immigrants from Europe at the expense of immigrants from other regions. 
In 1965, Congress replaced the national-origins quota system with a 
system of family-based and employment-based immigration and a per-
country limit, but this did not distribute visas evenly either. During 
the next 20 years, immigrants from Asia and Latin America outnumbered 
immigrants from other parts of the world.
    The next attempt to balance immigration from around the world 
produced a series of piecemeal lottery programs. Lotteries made it 
possible for immigrants from under represented countries to obtain 
visas. This was followed by a permanent lottery system, the Diversity 
Visa Program that is the subject of this hearing. It was established by 
the Immigration Act of 1990.
    Diversity visas are limited to 6 geographic regions, with a greater 
number of visas going to regions that have low rates of immigration. 
The Diversity Visa Program does not provide visas for countries that 
have sent more than 50,000 immigrants to the United States in the past 
5 years.
    Applicants for diversity visas are chosen by a computer-generated, 
random lottery drawing. The winners who can qualify for immigrant visas 
and are eligible for admission to the United States are granted legal 
permanent residence status. To qualify, an applicant must have 
completed twelve years of formal education (the equivalent of 
graduating from a United States high school) or 2 years of qualifying 
work experience. When diversity visa aliens apply for admission to the 
United States, they receive the same inspection that other immigrants 
receive.
    In September of 2003, the Office of the Inspector General for the 
Department of State issued a report on the Diversity Visa Program. 
According to the report, the Diversity Visa Program was subject to 
widespread abuse. Despite a rule against duplicate submissions, 
thousands of duplicates were detected each year. Identity fraud was 
endemic, and fraudulent documents were commonplace.
    The report recommended barring aliens from states that sponsor 
terrorism; permanently barring adult aliens who submit multiple 
applications; and making the program self-financing by charging every 
applicant a fee instead of just charging the applicants who win the 
lottery, which is the present system. The charge to winners is $350 per 
person. A much lower fee would be possible if every applicant had to 
pay a filing fee.
    The State Department has converted from paper to electronic 
applications and has required each applicant to submit an electronic 
photograph. The new process went into effect for the FY 2005 lottery 
program. The electronic system has made it possible to do much more 
comprehensive screening for duplicate applications.
    When paper applications were being used, the screening for 
duplicates was limited to comparing the winning applications against 
each other and against a small sampling of applications from applicants 
who had not been selected. It was not feasible to do more comprehensive 
screening when there were as many as 9 million paper applications. 
Under the new, electronic system, all of the applications from within 
each of the 6 regions are compared to each other; and additional 
comparisons are made among the winners.
    At a hearing last year on April 29, 2004, the Deputy Inspector 
General, Anne W. Patterson, testified that the Department of State had 
made progress in reducing fraud and vulnerabilities by implementing a 
facial recognition system.
    Another concern I want to address is that terrorists will use the 
program to enter the United States. People who enter the U.S. using 
diversity visas receive the same screening as any other aliens who come 
here as an immigrants, and this is much more extensive than the 
screening for admission as a nonimmigrant visitor, which is how the 9/
11 terrorists entered the country.
    The Diversity Visa Program does what it was intended to do; it 
diversifies immigration to the United States. I believe very strongly 
that this is a benefit to the United States. Thank you.

                                 <all>

</pre></body></html>
